No. 19-1115

In the Supreme Court of the United States
AMERICAN BANKERS ASSOCIATION, PETITIONER
v.
NATIONAL CREDIT UNION ADMINISTRATION, RESPONDENT

CERTIFICATE OF SERVICE
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the District of Columbia Circuit
BRIEF OF AMICI CURIAE
IOWA BANKERS ASSOCIATION, ET AL.
IN SUPPORT OF PETITIONER
I, Steven D. Gordon of the Bar of this Court, hereby certify that on April 10,
2020, three copies of the Brief As Amici Curiae In Support Of American Bankers
Association’s Petition For A Writ Of Certiorari were mailed, first class postage
prepaid, to counsel for the National Credit Union Administration at the following
address:
Robert A. Long, Jr.
rlong@cov.com
Kevin F. King
kking@cov.com
Lauren K. Moxley
lmoxley@cov.com
Covington & Burling LLP
One City Center
850 Tenth Street, NW
Washington, DC 20001-4956
ATTORNEYS FOR AMERICAN BANKERS ASSOCIATION

#3175302

Noel J. Francisco, Solicitor General
U.S. Department of Justice, Civil Division, Appellate Staff
950 Pennsylvania Avenue, NW
Washington, D.C. 20530
supremectbriefs@usdoj.gov
ATTORNEYS FOR NATIONAL CREDIT UNION ADMINISTRATION

STEVEN D. GORDON
Counsel of Record
HOLLAND & KNIGHT LLP
800 17th Street, NW, Suite 1100
Washington, D.C. 20006
202-955-3000
steven.gordon@hklaw.com
Counsel for Petitioner

2

